                     National Science Foundation • Office of Inspector General
                     4201 Wilson Boulevard, Suite I-1135, Arlington, Virginia 22230

MEMORANDUM

Date:         February 5, 2013

To:           Mary F. Santonastasso, Director
              Division of Institution and Award Support

              Karen Tiplady, Director
              Division of Grants and Agreements


From:         Dr. Brett M. Baker
              Assistant Inspector General for Audit

Subject:      Audit Report No. OIG-13-1-002
              Jackson State University


This memo transmits Mayer Hoffman McCann’s report for the audit of the claimed costs made
on 31 NSF awards granted to Jackson State University (JSU), totaling $19.4 million, reported on
the Federal Financial Report (FFR) submitted for the reporting period ended September 30,
2011. The audit objectives were to identify costs claimed on the NSF awards that were not
allocable, allowable and reasonable, and determine if JSU had properly accounted for,
segregated, and reported the funds for two American Reinvestment and Recovery Act (ARRA)
NSF awards.

The auditors questioned $943,474.74 of claimed costs, of which $99,935.19 are unallowable
charges to the NSF awards due to errors in remission of fee charges, unallocable equipment costs
and excess indirect costs. The remaining $843,539.55 are questioned due to lack of or
inadequate documentation to support the allowability, allocability and reasonableness of the
payroll charges and vendor purchases. Additionally, the auditors found that JSU had properly
accounted for and segregated the NSF American Reinvestment Recovery Act funds awarded for
award nos. 0840450 and 0906945 in its accounting system, and, submitted accurate and timely
quarterly ARRA reports. The audit identified $13,428.34 of questioned labor costs, which is part
of the $943,474.74 of total questioned costs, being claimed to ARRA Award No. 0906945 due to
insufficient supporting documentation. No questioned costs were identified under ARRA Award
No. 0840450.

The auditors recommended that NSF address with JSU and resolve the questioned costs, and
ensure that JSU’s new or expanded policies and procedures are implemented, where appropriate.
JSU, in its response dated November 9, 2012, agreed with the questioned indirect costs of
$83,843.90 identified in Finding 1 and the questioned remission of fees of $701.29 identified in
Finding 2, and stated that adjustments had been made to correct the amounts in question.
However, JSU did not agree with the equipment costs of $15,390 that the auditors questioned
due to unallocability in Finding 2 and majority of the questioned costs that the auditors
questioned due to lack of or inadequate supporting documentation in Finding 3. JSU’s response
is described after the findings and recommendations and is included in its entirely in Appendix
B.

Please coordinate with our office during the six month resolution period, as specified by OMB
Circular A-50, to develop a mutually agreeable resolution of the audit findings. Also, the
findings should not be closed until NSF determines that all recommendations have been
adequately addressed and the proposed corrective actions have been satisfactorily implemented.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

      •   Reviewed Mayer Hoffman McCann’s approach and planning of the audit;
      •   Evaluated the qualifications and independence of the auditors;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with Mayer Hoffman McCann and NSF officials, as
          necessary, to discuss audit progress, findings, and recommendations;
      •   Reviewed the audit report, prepared by Mayer Hoffman McCann to ensure compliance with
          Government Auditing Standards; and
      •   Coordinated issuance of the audit report.

Mayer Hoffman McCann is responsible for the attached auditor’s report on Jackson State
University and the conclusions expressed in the report. We do not express any opinion on the
conclusions presented in Mayer Hoffman McCann’s audit report.

We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact Jannifer Jenkins at 703-292-4996.

Attachment

cc:       Alex Wynnyk, Branch Chief, CAAR
          Dr. G. P. Peterson, Head of Audit & Oversight Committee, National Science Board




                                                2
Exhibits A and B are redacted in their entirety.
